           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




  THE SOCIAL SECURITY ADMINISTRATION’S
    CONTROLS OVER THE WRITE-OFF OF
        TITLE XVI OVERPAYMENTS


    January 2006       A-04-05-15041




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      SOCIAL SECURITY
MEMORANDUM

Date:   January 20, 2006                                                             Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Controls over the Write-off of Title XVI
        Overpayments (A-04-05-15041)


        OBJECTIVE
        Our objective was to determine whether the Social Security Administration’s (SSA)
        decisions to write-off Title XVI overpayments were in accordance with its policies and
        procedures.

        BACKGROUND
        Title XVI of the Social Security Act established the Supplemental Security Income (SSI)
        program in 1972, effective January 1, 1974, 1 to provide income to financially needy
        individuals who are aged, blind or disabled. To determine an individual’s initial eligibility
        for the program, payment amounts and periodic payment redeterminations, SSA relies
        on the individual’s self disclosure of all his or her income sources. Because an SSI
        recipient’s determination factors, such as financial status, marital status and living
        arrangements, vary over time, SSI payments may be error-prone and result in
        overpayments.

        When SSA detects it has overpaid a recipient, it first attempts full and immediate
        recovery of the overpayment while affording the debtor due process in resolving the
        overpayment. 2 If these efforts fail, SSA offsets the overpayment against any current
        and future payments, as appropriate. 3 For those SSA debtors not receiving payments,
        SSA attempts to negotiate a repayment agreement. SSA may also collect the
        overpayment from other Federal payments. 4 However, in certain circumstances, when
        SSA determines an overpayment is not collectible, it may elect to terminate future
        collection efforts and “write-off” the debt. At a later date, if SSA determines a debt is
        collectible, it may change or delete the write-off decision. 5

        1
          Social Security Amendments of 1972 (Public Law 92-603).
        2
          SSA Program Operations Manual System (POMS) SI 02220.051 - A.2. and SI 02201.025 A.
        3
          SSA POMS SI 02220.001 - A.2.
        4
          SSA POMS SI 02220.012 and SI 02220.013.
        5
          SSA POMS SM 01311.285.
Page 2 - The Commissioner


In Fiscal Year (FY) 2004, SSA’s field offices wrote off about $77.6 million in Title XVI
overpayments. Generally, SSA field office staff write off overpayments when

•   the debt is discharged in bankruptcy court;
•   an administrative law judge declares the overpayment uncollectible;
•   the overpaid beneficiary is deceased, and all required efforts to collect the
    overpayment have proved fruitless;
•   SSA is awaiting the Department of the Treasury’s investigation of an alleged
    improper negotiation of benefit payment(s); or
•   an overpayment is erroneously computed by SSA systems. 6

To complete a write-off action for the above circumstances, field office personnel must
assign a specific accounting code (“N” transaction code) to the overpayment. However,
this accounting code does not provide any further classification as to the specific reason
for the decision. For example, without written documentation, we were unable to
determine whether the overpayment was written off because the debtor was bankrupt,
deceased, or erroneously assigned an overpayment. SSA policies and procedures
require all overpayment write-off decisions be justified, documented, and, when certain
dollar thresholds are met, approved. 7 Moreover, Agency policies provide specific
instructions for writing off overpayments for debtors who are bankrupt 8 or deceased. 9

SCOPE AND METHODOLOGY

We reviewed 256 overpayments written off by SSA field offices in FY 2004. 10 This total
consisted of

•   125 randomly selected overpayment write-offs that ranged from $200.01 through
    $2,000,
•   125 randomly selected write-offs between $2,000.01 and $75,000, and
•   6 write-offs $75,000.01 and greater (all of the highest dollar decisions).

We reviewed each overpayment write-off decision for appropriateness as defined in
SSA’s Program Operations Manual System (POMS). Additionally we determined
whether the field office adequately documented (1) the reason for the write-off and
(2) management approval. Because we tested more than one control attribute for each
write-off decision, some decisions have more than one reportable issue. However,
when projecting the total number of write-offs with errors, we counted only one error for
each case. Further information regarding our scope and methodology as well as our

6
  SSA POMS SM 01311.280 A.
7
  According to SSA POMS SI 02220.005., field office disposition decisions for Title XVI overpayments
over $2,000 must be reviewed by field office management to ensure the decision is technically accurate
and in compliance with policy and procedures.
8
  SSA POMS SI 02220.040.
9
  SSA POMS SI 02201.023.
10
   The sample was composed from October 1, 2003 through October 15, 2004. This consists of 2 weeks,
October 1, 2004 through October 15, 2004, not in FY 2004.
Page 3 - The Commissioner


sampling methodology and results are in Appendices B and C.

RESULTS OF REVIEW
SSA personnel did not always comply with Agency policies and procedures to ensure its
decisions to write off Title XVI overpayments were appropriate. SSA policies and
procedures require all write-offs be justified, documented and, when certain dollar
thresholds are met, approved. However, our review of 250 randomly selected decisions
and the 6 highest dollar decisions determined SSA did not always document a
justification for the write-off or the required management approval. In total,
160 (64.0 percent) of the 250 randomly selected overpayment write-offs had one or
more noncompliance errors. As such, we project SSA personnel did not fully comply
with SSA policies and procedures in 33,283 FY 2004 overpayment write-offs totaling
about $48.8 million. See Appendix B for our projection methodology. Additionally, of
the six highest dollar overpayment write-off decisions, 3 totaling $302,318 did not fully
comply with SSA’s policies and procedures.

We recognize some types of non-compliance errors may not result in inappropriate
write-off decisions. However, because the justifications were not adequately
documented, we simply could not determine whether the decisions were reasonable.

SSA PERSONNEL DID NOT ALWAYS DOCUMENT THEIR DEVELOPMENT OF,
AND JUSTIFICATION FOR, THE WRITE-OFF OF OVERPAYMENTS

SSA personnel did not always comply with Agency policies and procedures to ensure
Title XVI overpayment write-offs were appropriate. SSA’s policies and procedures
require that the development of, and justification for, the write-offs be documented. 11
Our review included 250 randomly selected decisions and the 6 highest dollar
overpayment write-off decisions from FY 2004. For 124 of the 250 (49.6 percent)
randomly selected write-off decisions, SSA personnel did not maintain relevant and
sufficient documentation to justify the decision. Based on our results, we project
30,986 cases, totaling about $38.1 million, were not adequately documented. See
Appendix B for our projection methodology. Also, of the 6 highest dollar overpayment
write-off decisions, one decision for $85,162 lacked evidence to justify the write-off. In
total, 125 of the 256 write-off decisions reviewed were not adequately documented.

SSA policies require that SSA personnel take certain actions before writing off a
Title XVI overpayment. For example, before writing off an overpayment based on a
debtor’s bankruptcy proceeding or death, specific actions are required to ensure
recovery of the overpayment is not feasible. Further, SSA’s policies and procedures
require that the development of, and justification for, the uncollectible decision be
documented in the remarks section or a record of contact screen in the Modernized
Supplemental Security Income Claims System (MSSICS). 12

11
     SSA POMS, SI 02220.005 A.
12
     SSA POMS, SI 02220.005 C.1.
Page 4 - The Commissioner


Write-off Decisions for Debtors in Current Pay Status

For 56 (44.8 percent) of the 125 undocumented write-off decisions, the debtors were
receiving SSI or other SSA benefits at the time of our audit. However, we found no
evidence to justify the write-off decisions. Yet, we did determine these individuals were
not deceased and had not filed for bankruptcy protection. The write-offs for these
56 cases totaled $125,736. It is possible that some or all of the write-off decisions
appropriately corrected erroneously posted overpayments. However, because SSA’s
justifications for the decisions were not adequately documented, we could not determine
whether the overpayments should have been written off as uncollectible or some or all
of the overpayments should have been deemed collectible and the debt offset against
future SSA payments.

Write-off Decisions for Deceased Debtors

In 95 (37.1 percent) of the 256 write-off decisions, SSA’s records indicated the debt was
written off after the recipient’s death. However, 34 (35.8 percent) of the 95 decisions
lacked evidence that the uncollectible overpayment was written off according to SSA’s
policy, which states a deceased beneficiary’s estate is liable for the debt. 13 The total
amount written-off on these cases was $203,136. When the deceased beneficiary’s
debt is $5,000 or lower, SSA staff can write off the debt after a limited review of the
case facts. Specifically, SSA policy requires that only a notice of overpayment be sent
to the estate. No further collection actions are required unless (1) the debtor’s spouse
is “eligible” for SSA-administered benefits, (2) the debtor has a representative payee or
responsible spouse, or (3) the overpayment involves fraud. 14

When a deceased beneficiary’s debt is over $5,000, SSA policy requires that staff
determine whether the debtor has an estate. If an estate exists, further actions should
be taken to determine whether any recovery from the estate is possible. 15

Write-off Decisions Resulting from Goldberg-Kelly Cases

In some situations, SSA determines an SSI recipient is no longer eligible and payments
should be terminated. However, a U.S. Supreme Court decision, Goldberg v. Kelly,
397 US 254 (1970), ruled that public assistance recipients must receive advance notice
of an adverse action and be provided an opportunity to appeal the decision without




13
   SSA POMS GN 02215.050 - A.
14
   SSA POMS SI 02220.053 - A.2.,and GN 02210.221
15
   SSA POMS SI 02220.053 - A.5., and SI 02220.045 C.1
Page 5 - The Commissioner


interruption of benefit payments. 16 The cases affected by this policy are commonly
referred to as Goldberg-Kelly cases. According to the policy, Goldberg-Kelly type
recipients may receive SSI payments until their appeal is decided. However, payments
received during the appeal will be considered overpayments if the disability cessation
decision is upheld. 17

Our audit identified 11 overpayments, totaling $98,073, from Goldberg-Kelly type cases,
in which the decisions to terminate SSI payments were upheld through the appeals
process. SSA appropriately established overpayments on the recipients’ records.
However, after the appeal decisions, SSA deemed the overpayments uncollectible. In
each of the 11 cases, we found no evidence to justify the write-off decisions. During the
course of our audit, SSA field office staff responsible for recording the uncollectible
decisions all acknowledged the decisions recorded by their offices were incorrect. They
explained the overpayments were collectible unless the recipients requested, and SSA
granted, an overpayment waiver. SSA did not waive the overpayments on these
11 cases. Further, when a waiver is not granted, and the field office determines that the
recipient is unwilling or unable to repay the debt, the overpayment should be suspended
from further collection efforts—not written-off. When a debt is suspended from
collection actions, the debt may be recovered at a later date if the debtor becomes
eligible for SSA benefits or has the means to repay the debt.

Write-off Decisions when Debtors’ Representative Payees had Earnings

For five overpayment write-offs, totaling $23,401, SSA records indicated the debtors’
representative payees had earnings that may have been sufficient to enable some
repayment of the debt. According to SSA policy, personnel may attempt to recover an
overpayment from the recipient’s representative payee and should attempt to determine
whether the representative payee is solely or jointly liable for the overpayment. 18 In
these five cases, we found no evidence justifying SSA’s decision to write off the debt.
Without evidence, we could not conclude whether the overpayment should be
recovered from the representative payee or written-off.

SSA MANAGEMENT DID NOT ALWAYS DOCUMENT ITS REVIEW OF
WRITE-OFF DECISIONS, AS REQUIRED

From our sample of 250 randomly selected overpayment write-offs, 125 (50 percent)
required a supervisory review because the overpayment amount exceeded established

16
   SSA POMS SI 02301.300 - B.1. Goldberg-Kelly benefit continuation applies only to non-disability
determinations which result in a reduction, suspension or termination of SSI benefits. The non-disability
determination qualifies as an adverse action because the decision results in a reduction, suspension or
termination of SSI benefits.
17
   SSA POMS SI 02301.310.
18
   According to SSA POMS SI 02201.020 B.3.b., SSA may attempt to recover an overpayment from a
representative payee when (1) the overpaid funds were not used for the overpaid individual's support and
maintenance, and (2) the overpaid funds were used for the overpaid individual's support and
maintenance and the payee was aware of the facts causing the overpayment.
Page 6 - The Commissioner


dollar thresholds. The supervisory review for 35 of the 125 write-off decisions was
automatically documented as part of SSA’s revised transaction procedures, effective
April 24, 2004. Of the remaining 90 write-off decisions, 83 (92.2 percent) lacked
evidence of a supervisory review. The overpayments written off on these 83 decisions
totaled $446,530. Field office personnel may write-off uncollectible overpayments under
$2,000 without supervisory approval. However, write-off decisions for overpayments
between $2,000.01 and $19,999.99 must have field office management approval.

We reviewed the six highest dollar write-off decisions. For three of these decisions, we
found no evidence of the appropriate management approval. The overpayments for the
three write-off decisions exceeded $20,000 and required approval of an Assistant
Regional Commissioner for Management and Operations Support (ARC-MOS). Table 1
details the three write-offs exceeding $20,000 for which we found no evidence of the
required ARC-MOS approval.

                TABLE 1: Uncollectible Decisions that Exceeded $20,000
       Overpayment Amount            Date of Write-Off           Reason for the Write-off
                                                                Disability Cessation with
               $133,786                 October 6, 2003
                                                                Protected Benefits
                  85,162               November 3, 2003         Deceased Debtor
                                                                Late Discovery of a
                  83,370                October 8, 2003
                                                                Disability Cessation
               $302,318              Total

SSA policy in effect before April 24, 2004, required that management review of
write-offs exceeding established thresholds be documented by the respective manager
on a (1) Report of Contact screen in MSSICS; (2) paper SSA-5002 Report of Contact,
which should be maintained in the case folder; 19 or (3) SSA-553, Special Determination
form, which requires an ARC-MOS approval. However, we found no such
documentation for 83 of the 90 uncollectible decisions that required supervisory
approval.

After April 24, 2004, SSA’s revised procedures 20 required that field office managers
document their supervisory review in MSSICS by keying in a personal identification
number (PIN). 21 Under this procedure, uncollectible decisions developed by field office
staff cannot be posted to MSSICS until the supervisor enters a PIN, indicating the
decision was reviewed and approved. Our audit sample included 35 write-offs made
after April 24, 2004, which were processed through MSSICS. Because the two-pin
process was in place for these write-offs, we considered these decisions to have
management approval.

19
   SSA POMS, SI 02220.005 - B.3., in effect September 18, 2001 to November 26, 2002.
20
   SSA POMS, SI 02220.005 - A.
21
   SSA refers to this procedure as a two-PIN process. Non-supervisory staff must enter a PIN to access
and develop the decision in MSSICS (PIN 1). Then, a supervisor must enter a PIN to authorize the
posting of the decision (PIN 2).
Page 7 - The Commissioner



CONCLUSION AND RECOMMENDATIONS
SSA did not always follow established policies and procedures to ensure Title XVI
write-off decisions were appropriate. Specifically, SSA staff did not always document
their justification for classifying an overpayment as uncollectible. For cases that lacked
evidence supporting the write-offs, we found situations where the debt may have been
collectible. For example, some deceased debtors had a representative payee or
spouse with sufficient earnings to prompt case development and generate repayment of
the debt. Additionally, many decisions developed by field office staff lacked evidence of
a supervisory review.

We recommend that SSA:

1. Issue a reminder to SSA field office personnel to fully develop and document
   overpayment write-off decisions, as required by POMS, and implement a
   mechanism to monitor their compliance.

2. Issue a reminder and, if necessary, further guidance to SSA field office personnel on
   the proper disposition of overpayments resulting from Goldberg-Kelly type
   payments.

3. Ensure all uncollectible overpayment decisions exceeding established thresholds are
   reviewed and approved by appropriate SSA management officials, as required by
   POMS.

AGENCY COMMENTS

SSA agreed with our recommendations. In its response to our report, SSA stated
actions to strengthen the controls over writing-off uncollectible overpayments have been
taken or are planned. The full text of SSA’s comments is included in Appendix D.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgements
                                                        Appendix A

Acronyms
ARC-MOS   Assistant Regional Commissioner for Management Operations
          and Support
DMS       Debt Management System
FY        Fiscal Year
MEF       Master Earnings File
MSSICS    Modernized Supplemental Security Income Claims System
OPPD      Overpayment Decision Data
PIN       Personal Identification Number
POMS      Program Operations Manual System
SSA       Social Security Administration
SSI       Supplemental Security Income
SSN       Social Security Number
SSR       Supplemental Security Record
                                                                                    Appendix B

Scope and Methodology
To accomplish our objectives, we reviewed 256 Title XVI overpayments written off by
Social Security Administration (SSA) field offices in Fiscal Year (FY) 2004. 1 This total
consisted of (1) 125 randomly selected write-offs that ranged from $200.01 through
$2,000, (2) 125 randomly selected write-offs between $2,000.01 and $75,000, and
(3) 6 write-offs $75,000.01 or greater. We selected our population from SSA’s
Overpayment Decision Data (OPDD) segment of the Supplemental Security Record.
Specifically, from the OPDD segment, we selected transactions with an “N” “type of
recovery code,” which indicates SSA deemed the overpayment uncollectible. Within
this subset, we selected transactions with a blank “recovery transaction code,” which
indicates an SSA field office deemed the overpayment uncollectible. Transactions field
offices deemed uncollectible account for about 97 percent of the uncollectible decisions
recorded in the OPDD segment.

We reviewed each overpayment write-off decision for appropriateness, as defined in
SSA’s Program Operations Manual System (POMS). Our audit tested more than one
control attribute for each write-off decision. We determined whether the field office
adequately documented each decision to evidence the (1) reason/justification for the
write-off and (2) approval by the appropriate level of management. 2 As a result, some
write-offs have more than one reportable issue and are included as audit findings in one
or more sections of the report. However, when projecting the overall number of
write-offs with errors, we counted only one error for each case. We made all projections
at the 90-percent confidence level. Additional information regarding our sampling
methodology and results are in Appendix C.

We also:

•   Reviewed applicable SSA POMS that govern overpayment write-offs under Title XVI
    of the Social Security Act.

•   Interviewed SSA field office personnel regarding procedures used to develop and
    review overpayment write-off decisions.

•   Reviewed previous Office of the Inspector General and Governmental Accountability
    Office reports pertaining to Supplemental Security Income overpayments.




1
  The sample period comprised October 1, 2003 through October 15, 2004. This period consists of
2 weeks not in FY 2004 (October 1 through 15, 2004.)
2
  Field office disposition decisions for Title XVI overpayments over $2,000 require supervisory approval.


                                                   B-1
•   Queried and reviewed overpayment write-off information from SSA’s Supplemental
    Security Record, Modernized Supplemental Security Income Claims System,
    Modernized Development Worksheet, and the Debt Management System.

•   Queried and reviewed SSA’s Master Earnings File.

•   Requested and reviewed Title XVI folders from Wilkes-Barre Folder Servicing
    Operations.

•   Queried U.S. Bankruptcy Court records available in its Public Access to Court
    Electronic Records system.

We performed our audit work in Atlanta, Georgia, from January through July 2005. The
electronic data used for this audit were sufficiently reliable to meet our audit objectives.
The entities audited were the Offices of the Deputy Commissioners for Finance,
Assessment and Management; Operations; and Disability and Income Security
Programs. We conducted our audit in accordance with generally accepted government
auditing standards.




                                            B-2
                                                                                Appendix C

Sampling Methodology and Results
Sampling Methodology

In total, we reviewed a sample of 256 Title XVI overpayment write-off decisions from
Fiscal Year (FY) 2004. 1 Our sample consisted of (1) 125 randomly selected write-off
decisions between $200.01 and $2,000, (2) 125 randomly selected write-off decisions
between $2,000.01 and $75,000 and (3) 6 write-off decisions $75,000.01 and higher.
We selected our population from the Social Security Administration’s (SSA)
Overpayment Decision Data (OPDD) segment of the Supplemental Security Record.

Specifically, from the OPDD segment, we selected transactions with an “N” “type of
recovery code,” which indicates SSA deemed the overpayment uncollectible. Within
this subset, we selected transactions with a blank “recovery transaction code,” which
indicates an SSA field office deemed the overpayment uncollectible. Transactions field
offices deemed uncollectible account for about 97 percent of the uncollectible decisions
recorded in the OPDD segment. The following chart details our sample selections.

     Strata: Write off
      Decisions by                  Population         Population        Sample        Sample
     Dollar Amount                  Decisions            Dollars          Size         Dollars
$200.01 to $2,000                        52,348        $35,763,009        125            $81,613
$2,000.01 to $75,000                      7,976         41,104,666        125            618,877
$75,000.01 and Greater                         6           710,616           6           710,616
                    Totals               60,330        $77,578,291        256         $1,411,106

Our audit tested more than one control attribute for each Title XVI write-off decision.
For example, we determined whether each decision was (1) adequately documented to
evidence the justification for the write-off and (2) approved by the appropriate level of
management. As a result, some write-offs have more than one reportable issue and are
included in one or more of the Sampling Results sections that follow. However, when
projecting the overall number of Title XVI write-offs with errors, we counted only one
error for each case.

We made all projections at the 90-percent confidence level.




1
 The sampled timeframe includes an additional 15 days, October 1 through 15, 2004, which is outside
FY 2004.


                                                 C-1
Sampling Results
Overall Results – Write-off Decisions With at Least One Compliance Error

      Results and Stratified Projections of Attribute and Variable Appraisals

 Write-Off Decisions With At Least One Compliance Error —Decisions Between
                              $200.01 and $75,000
                               Attribute Appraisal Projections
 Population and Sample Data                                                         Decisions
 Total Population                                                                          60,324
 Sample Size                                                                                 250
 Write-off Decisions With at Least One Compliance Error — Decision Did Not
                                                                                             160
 Comply with SSA’s Policies and Procedures

 Projection to Population                                                           Projections
 Lower Limit                                                                               29,392
 Point Estimate                                                                            33,283
 Upper Limit                                                                               37,173

                                Variable Appraisal Projections
 Population and Sample Data                                                           Dollars
 Total Population                                                                    $76,867,675
 Sample Size                                                                             $700,490
 Write-off Decisions With at Least One Compliance Error — Decision Did Not
                                                                                         $543,830
 Comply with SSA’s Policies and Procedures

 Projection to Population                                                           Projections
 Lower Limit                                                                         $43,072,889
 Point Estimate                                                                      $48,765,297
 Upper Limit                                                                         $54,457,705



               Write-Off Decisions With At Least One Compliance Error —
                              Decisions $75,000.01 and Greater
Population and Sample Data                                                   Decisions    Dollars
Total Population                                                                6        $710,616
Sample Size                                                                     6        $710,616
Write-off Decisions in which at Least One Attribute Did Not Comply with
                                                                                3        $302,318
Policies and Procedures



                                                 C-2
SSA Did Not Always Maintain Documentation of its Development of and
Justification for Writing Off the Overpayment

      Results and Stratified Projections of Attribute and Variable Appraisals

 No Evidence Documenting the Development or Justification for Writing Off the
           Overpayment —Decisions Between $200.01 and $75,000
                               Attribute Appraisal Projections
 Population and Sample Data                                                            Decisions
 Total Population                                                                               60,324
 Sample Size                                                                                      250
 Decisions With No Evidence Documenting the Development or Justification for
                                                                                                  124
 Writing Off the Overpayment

 Projection to Population                                                              Projection
 Lower Limit                                                                                    27,083
 Point Estimate                                                                                 30,986
 Upper Limit                                                                                    34,888

                               Variable Appraisal Projections
 Population and Sample Data                                                                 Dollars
 Total Population                                                                       $76,867,675
 Sample Size                                                                                  $700,490
 No Evidence Documenting the Development or Justification for Writing Off the
                                                                                              $376,584
 Overpayment

 Projection to Population                                                              Projections
 Lower Limit                                                                            $32,528,962
 Point Estimate                                                                         $38,093,616
 Upper Limit                                                                            $43,658,269


 No Evidence Documenting the Development or Justification for Writing Off the
              Overpayment —Decisions $75,000.01 and Greater
Population and Sample Data                                                      Decisions     Dollars
Total Population                                                                   6          $710,616
Sample Size                                                                        6          $710,616
No Evidence Documenting the Development or Justification for Writing Off
                                                                                   1           $85,162
the Overpayment




                                                C-3
                  Appendix D

Agency Comments
                                       SOCIAL SECURITY


MEMORANDUM


Date:      January 17, 2006                                                    Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye        /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "The Social Security Administration’s
           Controls over the Write-Off of Title XVI Overpayments" (A-04-05-15041)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft
           report’s recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                    D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG)
DRAFT REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S
CONTROLS OVER THE WRITE-OFFS OF TITLE XVI OVERPAYMENTS”
(A-04-05-15041)

Thank you for the opportunity to review and provide comments on this draft report. We
agree that to ensure the integrity of the Supplemental Security Income (SSI) program, the
appropriate policies and procedures related to write-off decisions should be applied
consistently. It should be noted, however, that in 2001, the processing instructions for
overpayment decisions in the Program Operations Manual System (POMS) removed the
requirement that an SSI Overpayment and Disposition Determination be completed to
document the rationale for most overpayment determinations, including those determined
to be uncollectible. Processing instructions issued since then address the need to
document that a second review has been completed and that the second reviewer
concurred with the determination. However, the instructions did not specify that the
rationale for that determination had to be recorded in the file. In fact, POMS
SI 02220.005C.4 only suggests that the rationale for a determination of uncollectible
overpayments should be documented to assist the second reviewer. Additionally, POMS
does not state that the rationale should be retained in the case folder.

Recommendation 1

Issue a reminder to SSA field office personnel to fully develop and document
overpayment write-off decisions, as required by POMS and implement a mechanism to
monitor their compliance.

Comment

We agree. The current POMS instructions will be revised to provide the specific steps to
be taken, detail the criteria that must be met, and clearly identify what documentation is
required. We expect to complete the revisions and issue revised POMS by the end of the
third quarter of 2006. Additionally, we will ensure that the POMS revisions are
presented to the field offices through a transmittal training broadcast.

In terms of implementation of a mechanism to monitor compliance, we are currently
developing a project known as “Discrete TAC Codes.” When an overpayment
determination is made, the “TAC Code” (this is referenced in the report as “transaction
code”) is recorded to show the disposition of the overpayment. This enhancement,
expected to be implemented in late fiscal year 2006, will ensure better documentation of
the overpayment disposition process.

We believe the implemented 2-personal identification number (PIN) management
approval process, along with updated POMS instructions, will be sufficient monitoring of
the documentation used to support proper write-off of uncollectible funds.




                                           D-2
Recommendation 2

Issue a reminder and, if necessary, further guidance to SSA field office personnel on the
proper disposition of overpayments resulting from Goldberg-Kelly type payments.

Comment

We agree. Additional information to provide explicit direction will be provided in
POMS. POMS SI 02301.310B requires the Social Security Administration (SSA)
representative to explain to the recipient that he “might” have to repay incorrect
payments if he loses the appeal. This section will be revised to include Goldberg-Kelly
overpayment information so that field office personnel will be required to provide a
recipient with an explanation and to emphasize the recipients’ responsibility to repay
incorrect payments made during the appeal period. We will work to clarify the POMS
instructions and expect to issue revised POMS by the end of the third quarter of 2006.

Recommendation 3

Ensure all uncollectible overpayment decisions exceeding established thresholds are
reviewed and approved by appropriate SSA management officials, as required by POMS.

Comment

We agree. Field offices must be reminded that SSA policy requires management review
even for those cases when numerous smaller overpayments may exceed the specified
tolerance and the system does not automatically present the 2-PIN process. We will issue
a reminder to field office personnel by February 2006.


[The Agency also provided technical comments which have been addressed in
this report as appropriate.]




                                           D-3
                                                                        Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director (205) 801-1605

   Frank Nagy, Audit Manager (404) 562-5552

Acknowledgments

In addition to those named above:

   Phillip Krieger, Auditor

   Brennan Kraje, Statistician

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at http://ww.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-04-05-15041.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
